 Office of Inspector General
                        Catalyst for Improving the Environment




      OIG Response to
  Congressional Request on
Superfund Administrative Costs

     Briefing Report No. 2004-S-00004
            September 15, 2004

                                                        1
                              Overview
We performed this evaluation in response to a congressional request specified in the
conference report that accompanied H.R. 2673 (Consolidated Appropriations Act 2004).
The EPA Office of Inspector General (OIG) was asked to evaluate Superfund
expenditures and options to increase resources directed to extramural cleanup while
minimizing administrative costs. Our work under this request is ongoing, and we plan
to complete our work in January 2005. This briefing reports on OIG work completed to
date, including Superfund expenditures between 1999 and 2003, and the effectiveness of
EPA efforts to determine, allocate, and optimize Superfund administrative expenditures.

We requested EPA to review the accuracy of our facts in this briefing, and we
incorporated their comments when appropriate. We will include fuller coverage of these
issues when we complete our final report.

If you have any questions or need further assistance regarding this report, please contact
the Office of Congressional and Public Liaison, at (202) 566-2391.



                                                    Nikki L. Tinsley
                                                    Nikki L. Tinsley
                                                    Inspector General
                                                                                         2
                              Purpose
•   Questions answered in this report:
     – What are headquarters and regional Superfund expenditures for the
       last 5 years (FY 1999 to 2003)?
     – How effective are the processes and criteria for determining,
       allocating, and optimizing regional and headquarters’ administrative
       and support resources?

•   Questions to be answered by January 2005:
     – How effective are the processes and criteria for allocating Superfund
       program dollars to program needs?
     – How effective are EPA’s procedures for integrating efficiency and
       effectiveness information into the Superfund program?



                                                                           3
                        Background
•   1,518 sites have been cleaned up by the Superfund program since 1980
    or are being cleaned up.

•   Although money remains and continues to be appropriated for
    Superfund, there has been a decline in Superfund appropriations.

•   Superfund’s Trust Fund has declined so much that, in 2004, all
    Superfund appropriations were financed from general tax revenue.




                                                                           4
                     Superfund Appropriations
                        Fiscal 1999 to 2004

Constant 2003 dollars
(millions)

     $1,500

     $1,200       $298

       $900                       $625            $608           $638            $632

       $600                                                                                    $1,249
                 $1,069
       $300                       $625            $608           $598            $632

         $0
                FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004

                                Trust Fund            General Tax Revenue

        Excludes allocations for the Agency for Toxic Substances and Disease Registry, the National Institute of
        Environmental Health Sciences, and Brownfields.                                                            5
                    Previous Studies Indicated
                 Superfund Improvements Needed

•    Recent Superfund studies stated:

      – Program is not ramping down.1
      – EPA needs to improve program information, improve coordination,
        and spend resources more wisely.2
      – Program efficiency can be improved.3

•    EPA internal 120-day study made over 100 recommendations to
     improve program.


1
  “Superfund’s Future: What Will It Cost,” Resources for the Future, 2001.
2
  The National Advisory Council for Environmental Policy and Technology, Superfund Subcommittee Report, 2004.
3
  “Superfund: Building on the Past, Looking to the Future,” EPA, 2004.

                                                                                                                6
         Question 1

   What are headquarters and
regional Superfund expenditures
      for the last 5 years?




                                  7
                           Question 1:
                      Scope and Methodology
•   Identified FY 1999-2003 administrative and programmatic expenditures by region and headquarters office.
•   Extracted expenditure data from EPA’s Integrated Financial Management System (IFMS) and adjusted to
    constant 2003 dollars using Gross Domestic Product Chained-Price Index.
•   Due to time constraints, used Agency’s definition and coding of administrative and programmatic
    expenditures, as defined by policy.
•   Obtained full-time equivalent personnel (FTE) usage data from EPA’s Combined Payroll Accounting
    Redistribution System (CPARS).
•   Excluded from our review the Agency for Toxic Substances and Disease Registry (ATSDR), the National
    Institute of Environmental Health Sciences (NIEHS), and EPA OIG Superfund expenditures. Also
    excluded EPA’s Office of Research and Development (ORD) and OIG FTE data.
•   Obtained additional information from the Agency’s audited financial statements, interviews with and
    documentation from Agency officials, survey of personnel activities in two regions, EPA’s internal
    “120-day” study, and National Advisory Council for Environmental Policy and Technology’s Superfund
    Subcommittee Final Report.
•   Generally complied with Government Auditing Standards. However, there were significant limitations.
     – IFMS was the primary system upon which we relied, and reports have indicated weak IFMS controls.
     – Due to time constraints, we did not test internal controls.
     – We relied on data gathered by third parties, such as Resources for the Future, but did not test the data
        they used to reach their conclusions.
                                                                                                        8
                   Overall Superfund Expenditures
                              Declining
•   Over past 5 years, EPA’s inflation-adjusted Superfund expenditures
    declined about 11%, from $1.71 billion in 1999 to about $1.52 billion
    in 2003.1,2
•   Superfund FTEs declined 7% during the same time period, from
    3,330 in 1999 to 3,088 in 2003.3
•   On average, about 75% of total expenditures and 80% of FTEs were
    in EPA regions.4
•   EPA’s Superfund expenditures excluded Superfund allocable costs
    absorbed by the Environmental and Program Management (EPM)
    appropriation, Superfund expenditures made by other Federal
    agencies, or those directly made by responsible parties.

1 - Excludes OIG expenditures.
2 – Throughout this presentation, total expenditures include those of ORD. Expenditures categorized as programmatic
    and administrative do not include ORD due to time constraints.
3 - Excludes OIG and ORD FTE.
4 - Excludes OIG expenditures, OIG and ORD FTE. Percentages are averages for FY 1999 to 2003.                         9
         Superfund Expenditures:
         Overall Expenditures Declining
Constant 2003 dollars
(millions)
                 $1,714               $1,719
   $1,800                                      $1,564    $1,528    $1,526
   $1,500
   $1,200
     $900
     $600
     $300
        $0
                FY 1999           FY 2000      FY 2001   FY 2002   FY 2003


         Excludes OIG expenditures.
                                                                             10
                         Superfund Expenditures:
                         Superfund FTEs Declining


                 3,500      3,330              3,234    3,135     3,119     3,088
                 3,000
Number of FTEs




                 2,500

                 2,000

                 1,500

                 1,000
                         FY 1999         FY 2000       FY 2001   FY 2002   FY 2003

                     Excludes OIG & ORD FTE.
                                                                                     11
            Superfund Expenditures:
            Administrative Expenditures Increased
            While Programmatic Expenditures Decreased

•   Superfund expenditures averaged 75% programmatic and
    25% administrative from FY 1999 to FY 2003.
•   Administrative expenditures increased $36.8 million while
    programmatic expenditures decreased about $174 million.
•   Personnel-related expenditures (compensation and benefits) accounted for
    nearly 80% of total known administrative expenditures over the 5 years.
•   EPA indicated personnel costs are rising and are funded, to some degree,
    by reductions in program resources. Much of the increases are attributable
    to personnel costs, such as cost of living allowances.



        Expenditures exclude OIG. Due to time constraints, we could not verify the categorization of ORD
        programmatic and administrative expenditures. Uncategorized expenditures were also excluded.



                                                                                                           12
        Superfund Expenditures:
        Superfund Programmatic Expenditures
        Declining

Constant 2003 dollars
(millions)
 $1,500         $1,301             $1,300
                                                      $1,153              $1,127
 $1,200                                                         $1,104

   $900

   $600

   $300

      $0
              FY 1999            FY 2000              FY 2001   FY 2002   FY 2003
     Expenditures exclude ORD and OIG.
     Uncategorized expenditures were also excluded.
                                                                                    13
        Superfund Admin. Expenditures:
        Personnel-related Costs Increasing,
        Other Known Costs Decreasing


Constant 2003 dollars
(millions)

    $500
    $400                                                                   $82
                 $87              $89              $81          $76
    $300
    $200
                $288             $295             $297          $312      $332
    $100
      $0
              FY 1999          FY 2000           FY 2001       FY 2002   FY 2003

                    Personnel-related                  Non-Personnel related

      Expenditures exclude ORD and OIG.
      Uncategorized expenditures were also excluded.
                                                                                   14
           Superfund Admin. Expenditures:
           Personnel a Large Component of Known Costs

•   Regions account for about 78% of personnel costs.
•   The program office (Office of Solid Waste and Emergency Response, or
    OSWER) and the Office of the Chief Financial Officer (OCFO) maintain
    that some personnel costs should be categorized as programmatic.
•   IFMS and the payroll accounting system do not provide detailed data on
    personnel-related activities.
•   Our survey of two regions indicated personnel activities include:
          - Remedial project management      - Contract management
          - Legal support                    - Grant management
          - Technical assistance             - Information system services



       Expenditures exclude ORD and OIG.
       Uncategorized expenditures were also excluded.
                                                                         15
         Superfund Admin. Expenditures:
         Non-Personnel Costs


•   After personnel, facility costs (rent, utilities, and communications)
    represent next largest component of known administrative expenditures.

•   Contractual services, travel, and equipment account for majority of
    other known administrative costs.

•   Overhead costs, such as utilities, are allocated to the Superfund program
    based on varying methodologies, but are usually driven by the number of
    Superfund FTE.


        Expenditures exclude ORD and OIG.
        Uncategorized expenditures were also excluded.


                                                                          16
            Limitations Indicate Amount Spent on
            Administrative and Programmatic Costs Is
            Underestimated and Cannot Be Fully Determined




•   Expenditure data does not include Superfund allocable expenditures
    absorbed by the EPM Appropriation.

•   EPA used $370 million from its EPM account for Superfund costs during
    FY 1999 to 2003 (see next slide), but these expenditures were not accounted
    for or tracked as Superfund expenditures in EPA’s financial management
    system.




                                                                           17
               EPM Benefits to Superfund
•      EPA used the EPM to absorb a portion of Superfund support activity
       costs and thus keep administrative costs below the Congressional imposed
       ceiling (management & support function cap), as shown below1:

       FY 1999             FY 2000              FY 2001              FY 2002        FY2003              Total

       $38.5 mil           $33.1 mil           $106.9 mil           $116.2 mil      $75.6 mil        $370.3 mil



•      Congress divides Superfund appropriation funding into function caps
       allocated organizationally:
    Response function cap              OSWER and OAR (Office of Air and Radiation)
    Enforcement function cap           OECA (Office of Enforcement and Compliance Assurance)
    Research function cap              ORD
    Management & support               OCFO, OARM (Office of Administration and Resources Management), OEI
    function cap                       (Office of Environmental Information), and OGC (Office of General Counsel)


    1 - Source: EPA financial statements adjusted to constant 2003 dollars.

                                                                                                                    18
          Expenditure Data Has
          Additional Limitations


•   Expenditure data do not account for direct expenditures made by
    responsible parties. Given that responsible parties currently conduct
    over 70% of Superfund cleanups, EPA expenditure data underestimate
    the actual amount spent on remediation or programmatic activities.

•   Expenditure data do not include ATDSR and NIEHS expenditures.
    In 2003, ATSDR and NIEHS received $73 million and $79 million,
    respectively, for a total of $152 million.




                                                                       19
                              Observations

•   Administrative expenditures for Superfund personnel increased in the
    last 5 years while programmatic expenditures decreased.

•   EPA supplements the Superfund appropriation by using the EPM
    appropriation to pay support activity costs. According to OCFO, this keeps
    Superfund's administrative costs within the Superfund management and
    support function cap.

•   Because EPA does not consistently define, track, or account for its
    administrative expenditures, true expenditures are not fully understood and
    cannot be effectively managed.


                                                                           20
        Question 2

How effective are the processes
 and criteria for determining,
   allocating, and optimizing
  regional and headquarters’
       administrative and
       support resources?



                                  21
                      Question 2:
                 Scope and Methodology
•   We reviewed processes and criteria in place as of 2003.

•   We obtained information from: interviews with Agency Headquarters
    and regional officials and individuals from ATSDR and NIEHS;
    reviews of Government Accountability Office (GAO), OIG, and others’
    evaluations, audits, testimony, and studies performed during the last
    5 years; a survey of all EPA regions; a personnel activities survey in
    two regions; and review of Agency and other documentation.

•   We obtained data from IFMS, CPARS, and CERCLIS (Comprehensive
    Environmental Response, Compensation, and Liability Information
    System).

•   As noted previously, we did not test internal controls for these systems.
    Other reports have identified weaknesses in IFMS and CERCLIS.

                                                                            22
         Superfund Administrative Costs
         Not Effectively Managed

•   Several factors inhibit the Agency’s ability to effectively determine,
    allocate, manage, and optimize administrative costs. Factors include:

     – Lack of clear criteria and management information for identifying
       and evaluating administrative costs.
     – Outdated methodology for determining and allocating costs.
     – Functional management of funding that inhibits ability to manage
       effectively and optimize resources.




                                                                             23
          Criteria for Identifying, Reporting, and
          Analyzing Administrative Costs Lacking

•   OCFO defines “administrative” and “programmatic” costs for budgetary purposes.

     – OCFO defines administrative expenditures as staff, support, and overhead-related costs,
       including payroll, rent, office supplies and equipment, facilities, maintenance, and
       general (non-technical) training.
     – OCFO defines programmatic expenditures as costs that are specifically driven by
       environmental statute and program activities, including extramural cleanup activities,
       special-use facility-related costs, and unique and limited-use item-related costs.
     – OSWER does not agree with this definition, which categorizes all personnel costs as
       “administrative,” but has not taken steps to define administrative costs.

•   There is no central, integrated source of information on Superfund administrative costs.

     – Neither the Agency’s accounting system (IFMS) nor its payroll accounting system
       (CPARS) provides detailed data on FTE activities -- the main component of
       administrative costs.
     – Administrative costs absorbed by EPM are not identified in IFMS as Superfund
       expenditures.



                                                                                               24
           Administrative Requirements and
           Allocations Historically Based
•   Administrative requirements and allocations largely based on prior years’
    allocations.
•   FTE allocations are historical and based on an outdated Agency workload
    model.
     – EPA bases requirements and allocations on an outdated workload model
        that cannot be located and has not been updated since 1987.
     – An internal EPA study1 indicated FTE regional allocations are “heavily
        influenced” by the historic number of National Priorities List (NPL) sites.
        However:
          • The number and status of NPL sites has changed since 1987.
          • New missions have been added and reduced (e.g., homeland security,
            Brownfields legislation).



              1
                                                                             25
                  Source: Superfund Regional Workforce Analysis March 2004
                    Change in Status and Number of
                    Superfund Sites, 1987 to 2003

                                             Cleanup status of NPL sites

                  1800
                                                                           Deleted Referred to Another
                  1600
                                                                           Auth.
                  1400                                                     Construction Completed
Number of sites




                  1200
                                                                           Construction Underway
                  1000
                  800                                                      Design Underway
                  600
                                                                           Remedy Selected
                  400
                  200                                                      Study Underway

                       0
                                                                           Remedial Assessment Not
                                                                           Begun
                    87

                            89

                                  91

                                        93

                                                95

                                                97

                                                99

                                                01

                                                03
                           FY




                                             FY




                                             FY
                                             FY




                                             FY
                  FY




                                 FY

                                       FY




                                             FY




                                                                    Source: OIG analysis of EPA data
                                                                                                         26
        Superfund Personnel Allocations
        Based on Outdated Workload Model

•   Without a comprehensive assessment of FTE distribution and workload
    across the regions and Headquarters, it would be difficult for EPA
    management to optimally allocate resources.
•   Nine of 10 EPA regions allocate some portion of Superfund FTE to
    activities in their regions, such as community involvement, public affairs,
    and the Regional Administrator’s Office. (We did not verify whether
    these FTE performed Superfund-related functions.)
•   Sub-optimum allocations of regional FTE could impact other Superfund
    administrative costs, including overhead charges.
     – Regional overhead (regional support account costs) is allocated based
       on the proportion of Superfund FTE to total regional FTE.


                                                                           27
     Appropriation Function Caps Provide
     Superfund Cost Allocation Framework

• Appropriation function caps provide Superfund cost
  management framework for Agency, resulting in:

   – Decentralized management of Superfund administrative
     costs.
   – Stovepipe management of Superfund resources within
     EPA and across Agencies.




                                                       28
           Stovepipe Management Framework
           Impacts Superfund

•   OSWER does not have full authority over Superfund resources, although
    it is accountable for cleanup goals.
      – Funds are allocated separately to support organizations, such as
         OARM, ORD, and OCFO.
      – OSWER has authority over only half of Superfund FTE.
         (Personnel comprise majority of known administrative costs.)
      – ORD makes the final determination on Superfund research priorities
         even though EPA’s strategic plan indicates that research is a support
         function for Superfund.
      – OECA makes the final determination on enforcement resource
         priorities.



                                                                            29
         Research Funds Split Among
         Three Agencies

•   ORD, ATSDR, and NIEHS all receive funding for Superfund research, but
    no formal mechanism exists to prevent unintended duplication of research.

•   According to GAO reports,1 ATSDR and EPA perform duplicate health
    assessments. GAO stated that EPA officials believe ATSDR health
    assessments are not useful because they are not timely.

•   EPA Regions say NIEHS does not contribute directly to Superfund response
    and remediation goals -- NIEHS’s mission is basic research, not
    remediation.




                       1 - GAO/RCED-91-178 and GAO/RCED-99-85            30
            Opportunities and Information to
            Optimize Resources Exist:
            Many Prior Recommendations Made

•   Numerous external studies by GAO, OIG, and others (such as Resources
    for the Future) have recommended improvements and better practices.
     – Fifteen reports addressed five key administrative-related activities
         between 1996 and 2003.
     – Over 50 recommendations made to address these activities:
         contracting, cost accounting, deobligations, use of workload model,
         and special accounts.
•   EPA has conducted numerous studies that have also recommended
    improvements. For example, the 2004 “120-day” study made over
    100 recommendations, and some are being considered or tried.
•   Notwithstanding, inefficiencies persist in such key areas as:
    (a) contracting, (b) special accounts, and (c) unspent obligations.


                                                                          31
           Opportunities and Information to
           Optimize Resources Exist:
           Management of Contracting

•   In FY 2003, approximately $1.1 billion, or about 75%, of Superfund expenditures were
    for contracts, interagency agreements, and grants.
•   Contracts are for cleanup-related activities, administrative functions, other activities.
•   Reports by GAO, OIG, and Agency highlight lingering issues with ineffective and
    inefficient management of contracts, interagency agreements, and grants (e.g., use of
    independent cost estimates).
•   Internal and external reports recommended contracting efficiencies:
      – Consistently using government cost estimates.
      – Analyzing and negotiating a standard overhead rate for Federal agencies.
      – Using the most cost-effective contracting mechanism.
      – Consolidating administrative functions.
•   The Agency has taken steps to improve contract cost estimation, such as:
      – Development of a cost estimating “tool box.”
      – Issuing a memorandum highlighting the resources available to generate cost
         estimates.
      – Requesting data to evaluate cost estimate quality.
      – Discussing importance of cost estimating at Superfund Senior Regional
         Management and Acquisition Council meetings.

                                                                                                32
         Opportunities and Information to
         Optimize Resources Exist:
         Management of Special Accounts
•   Special accounts represent a major source of funding for the Superfund
    program, collecting about $1.41 billion as of July 2004.
•   Agency’s 120-day study and OIG have made several recommendations to
    improve the management of special accounts.

     – Instruct Regional staff on the existence, purpose, and usage of special accounts
       related to their sites.
     – Develop fact sheets on setting up special accounts, utilizing special account dollars,
       and closing out the accounts.
     – Regions should track and periodically report to headquarters how much special
       account money they are using annually and how they are using it.


•   EPA has issued guidance and conducted training to assist regions with the
    management of special accounts.
•   Regions have deobligated money from special accounts for use at other
    regional priority sites.


                                                                                            33
         Opportunities and Information to
         Optimize Resources Exist:
         Recovery of Unspent Obligations
•   Since early 1990s, GAO and OIG have reported that recovery of unspent funds
    is a long-standing problem. The 2004 120-day study notes that significant
    amounts of funds remain underutilized. Problems include:

     – Closeout of completed contracts and interagency agreements continue to
       be delayed.
     – Regions are obligating funds for contracts and Army Corps of Engineers
       interagency agreements in excess of near-term requirements.
     – Agency estimates indicate there is potentially about $80 million in unspent
       remedial contract obligations that exceed the projected requirements for 2
       years.

•   OSWER has taken actions to use unspent funds, deobligating
    $328 million for FY 2002 and 2003 from contract obligations.




                                                                                 34
       Opportunities and Information to
       Optimize Resources Exist:
       Tracking of Actions Completed Is Limited

•   EPA does not follow up to see if corrections solved the problem.
     – Status and effectiveness of actions taken not routinely tracked or
       analyzed.
•   The Agency does not have a well-defined system to track actions
    recommended by internal studies.




                                                                            35
        Opportunities and Information to
        Optimize Resources Exist:
        Processes to Implement Best Practices
        Limited
•    OECA and OSWER have many venues to discuss best practices,
     e.g., national meetings, telephone conference calls, monthly
     meetings.
    – According to the Agency, OSWER and OECA have
         benchmarking work underway.
•   There does not appear to be a common strategy to evaluate,
    implement, and monitor the effectiveness of the best practices across
    the regions.




                                                                        36
                                Observations

•   Congressional function caps translate into a management framework for the
    Superfund program that is characterized by stovepipe allocation and management
    of Superfund resources.

•   Outdated workload model limits EPA’s ability to effectively manage Superfund

•   Lack of coordination could impact research effectiveness.

•   Stovepipe approaches to managing Superfund resources, and limitations
    associated with an outdated Superfund workload model, are barriers to
    administrative efficiency, minimizing duplication, and the optimum use of
    resources.

•   Because EPA’s processes to track the effectiveness of recommended actions to
    improve the Superfund program are limited, continuing and repeated
    recommendations on how to improve the program’s efficiency and effectiveness
    may not achieve desired results.


                                                                                37
EPA OIG Major Contributors
         Carolyn Copper
       Katherine Thompson
         Chad Kincheloe
         Tina Lovingood
           Pankaj Arora
         Katherine Beam
             Jee Kim
          Jessica Knight
            Laura Tam
          Bryan Holtrop




                             38
